REVIEW OF GSA’S TELEWORK PROGRAM
 REPORT NUMBER A050197/O/F/F07005
        NOVEMBER 14, 2006
               Review of GSA’s Telework Program
               Report Number A050197/O/F/F05007


                      TABLE OF CONTENTS


EXECUTIVE SUMMARY                                  1
INTRODUCTION                                       3
RESULTS OF AUDIT                                   5
RECOMMENDATIONS                                    9
MANAGEMENT COMMENTS                                9
INTERNAL CONTROLS                                  10


                         APPENDICES

MANAGEMENT RESPONSE                               A-1
REPORT DISTRIBUTION                               B-1
                            EXECUTIVE SUMMARY


Purpose
The objective of our review on GSA’s Telework Program was to determine
whether GSA had developed adequate procedures for the implementation of the
Telework Program, if those procedures are operating effectively, and whether
there is proper management and monitoring in place to oversee the program.


Background
Telework provides associates the opportunity to work from home or at a
telecommuting center on an occasional or recurring basis. Telework programs
have become increasingly widespread in the Federal government since the
Federal Flexible Workplace Pilot Project, co-directed by the General Services
Administration (GSA) and the Office of Personnel Management (OPM), identified
a number of benefits to teleworking, including improvement in employee
productivity and retention, reduced transportation costs and traffic congestion,
and improved air quality. In Fiscal year 2001, the Department of Transportation
and Related Agencies Appropriation Act included a provision that “Each
executive agency shall establish a policy under which eligible employees of the
agency may participate in telecommuting to the maximum extent possible without
diminished employee performance.”         In response to this Act, GSA has
established a goal to be a leader in the development and overall use of flexible
workplace programs, including telework.

Results-in-Brief
Our review of GSA’s Telework Program found that the program has not been
consistently implemented throughout the three regions selected for testing.
Furthermore, the monitoring controls put into place to track the number of
associates participating in the Telework Program are not sufficient to ensure the
accuracy of externally reported data. Finally, GSA’s telework guidance is
inconsistent with the Federal telework guidelines published in the Federal
Register.

Recommendations
We recommend that GSA’s Office of the Chief Human Capital Officer (CHCO)
take the following steps to help ensure GSA effectively implements, monitors,
and manages the Telework Program:

      Implement an agency-wide training program, outlining telework
       expectations, procedures, and policies for Regional Coordinators,
       Telework Supervisors, and Teleworkers to create a Telework Program that
       is administered consistently throughout the organization.


                                       1
   Implement monitoring controls by developing an agency-wide tracking
    system or database to identify associates who are participating in the
    telework program.
   Review current telework guidance and update as necessary in accordance
    with recent guidance issued by OPM.
   Review the official duty station of full time teleworkers to ensure the
    associates are receiving the correct locality pay.




                                   2
3
                               INTRODUCTION

Background

Telework provides associates the opportunity to work from home or at a
telecommuting center on an occasional or recurring basis. Working jointly to
promote a governmentwide telework initiative, GSA and OPM have identified a
number of benefits to telework including: improvement in employee productivity
and retention, reduced transportation costs and traffic congestion, and improved
air quality. In addition, a telecommuting program provides an alternative
workplace in the event of national and local emergencies.

Over the past several years, Congress has sought to encourage government
agencies to increase employee participation in telework through legislation. For
instance, the Department of Transportation and Related Agencies Appropriations
Act, 2001 (P.L.106-346) required each executive agency to establish a policy
under which eligible employees may participate in telework to the maximum
extent possible without diminished employee performance. Additionally, the
Consolidated Appropriations Act, 2005 (P.L 108-447) mandated that $5,000,000
of appropriated funds would be withheld if certain agencies did not certify that
telecommuting opportunities were made available to 100 percent of their eligible
workforce.

To facilitate the implementation of a telework program within GSA, revisions were
made to Chapter 12 of the GSA Time and Leave Administration Handbook (GSA
Order OAD P 6010.4) in September 1996. Under the provisions of the amended
policy, the Personnel Policy and Planning Division (CPP) was given responsibility
for the implementation and administration of GSA’s Telework Program. In
addition, a National Telework Coordinator was established to organize the
Telework Program within GSA. The National Telework Coordinator relies on
Regional Coordinators to provide a listing of program participants in their
respective regions which is used to compile GSA’s annual telework survey
submitted to OPM.
GSA has established eligibility criteria for the agency’s Telework Program to
ensure that telework is beneficial for the associate and the agency. In order to
be considered for the program, an associate’s duties should be such that they
can be effectively performed at an alternative worksite. The associate must
demonstrate through job performance that they are qualified to participate in the
program. Specifically, an associate’s most recent performance rating must be at
least fully successful. Final approval for participation in the program is
determined at the discretion of management.




                                       4
Objective, Scope, and Methodology

The objective of our audit was to answer the following questions:

Has GSA developed adequate procedures for implementation of the
Telework Program within the agency?

Are those procedures operating effectively to manage the program?

Is proper management and monitoring in place to effectively oversee the
Telework Program?

To accomplish our audit objectives we:

   Reviewed GSA policies and procedures applicable to GSA’s Telework
    Program.

   Interviewed CHCO Officials and Regional Telework Coordinators.

   Performed a survey of GSA’s Telework Program through the use of
    questionnaires issued to a randomly generated sample selection of fifty
    teleworkers per region selected for testing and their supervisors.

   Recalculated the number of GSA associates participating in the Telework
    Program, as reported to OPM for 2003 and 2004.

   Tested payroll and travel records for a selected sample of teleworkers.

Based on a review of the telework rosters prepared by the regions during 2005,
we chose to perform testing for those regions which reported the highest number
of telework participants, including the New England, Southeast Sunbelt, and
National Capital Regions. For our testing of payroll and travel records, we also
included teleworkers from the Greater Southwest Region in our sample. The
audit was conducted from May 2005 to February 2006 in accordance with
generally accepted government auditing standards.




                                         5
                               RESULTS OF AUDIT

We found that the CHCO should take steps to ensure that the policies and
procedures established for the Telework Program are fully implemented
throughout the agency. During our review we determined that GSA’s Telework
Program was not consistently implemented in the three regions selected for
testing. Additionally, our testing found that monitoring controls were not sufficient
to ensure that GSA accurately determined and reported the number of
participants in GSA’s Telework Program. Furthermore, we found GSA’s
Telework guidance inconsistent with the current guidelines contained in the
Federal Register.

Telework Program Not Consistently Implemented

The official GSA telework policy developed by the CHCO has not been
consistently implemented across the three regions selected for testing.
Specifically, while our testing found that the Telework Program in the New
England Region appeared to be implemented effectively, our testing in the
Southeast Sunbelt and National Capital Regions identified a number of instances
which indicate that the program may not be operating as intended. These
instances were attributable to a lack of formal telework training and management
resistance to the program.

The GSA Time and Leave Administration Handbook requires all associates
participating in the Telework Program, as well as their supervisors, to complete
training prior to beginning a telework arrangement. This training is provided to
ensure that the associates understand the responsibilities and requirements
inherent to teleworking. Associates and their supervisors must certify that they
have completed this training by signing GSA Form 3656, Supervisory Employee
Checkout List. Once the associate has received the necessary training, they are
responsible for ensuring that a proper work environment is maintained and other
responsibilities, such as dependant care, do not interfere with their assigned
duties.

To determine whether adequate training was provided to teleworkers, we asked
the following question in our survey of telework participants, “Prior to beginning
telework, did you receive any telework training?” The majority of the respondents
from the National Capital and Southeast Sunbelt Regions indicated that they did
not receive this training. Conversely, the majority of respondents from the New
England Region indicated that they did receive training.

When asked about telework training, sixty-four percent of the respondents from
the Southeast Sunbelt Region and eighty-two percent of the respondents from
the National Capital Region informed us that training was not received. This lack
of training may have resulted in the misuse of the telework program. For
instance, five associates from the National Capital Region reported that they
                                       6
have used telework as a form of dependant care. Furthermore, we were
informed by one Regional Coordinator that no formal telework training had been
established for their region. The coordinator stated that, because they did not
receive training, they felt unqualified to establish a telework training program for
their entire Region.

In contrast to the response from the Southeast Sunbelt and National Capital
Regions, ninety-four percent of the respondents from the New England Region
replied that they had received telework training. The telework committee
members in the New England Region, informed us that this training, provided to
new associates during orientation, details the eligibility requirements for the
Telework Program. Training is also provided for the Lotus Notes database,
which is used to complete necessary telework documentation.

Written responses provided by teleworkers from the Southeast Sunbelt and
National Capital Regions, as well as, interviews with the Coordinators from these
regions, indicated there is a perception of a lack of management support which
may have led associates to feel discouraged from participating in the Telework
Program. According to one Regional Coordinator, top management should place
a greater emphasis on program participation to increase lower management
support of the Telework Program.

Monitoring Controls Not Sufficient to Ensure the Accuracy of Reported
Data

The monitoring controls used by the CHCO to track the number of associates
participating in GSA’s Telework Program were not sufficient to ensure the
accuracy of the data reported externally to OPM. Furthermore, monitoring
controls were not adequate in two of the three regions selected for testing to
verify the accuracy of the data they are reporting to the CHCO.

The Department of Transportation and Related Agencies Appropriations Act,
2001 (P.L.106-346) required each Executive agency to establish a policy under
which eligible employees of the agency may participate in telecommuting to the
maximum extent possible without diminished employee performance. As a result,
OPM has required in past years that each agency report both the number of
employees eligible for telework and the number of employees actually
participating in the Telework Program. To compile this report, GSA’s National
Telework Coordinator requests that each Regional Coordinator submit telework
eligibility and participation data for their region. To ensure that proper monitoring
occurs, the GSA Time and Leave Administration Handbook requires that once
management approves an associate’s request to participate in the agency’s
Telework Program, the associate must complete and sign a telework agreement
form (GSA Form 3654). This form, which is required to be renewed annually,
outlines the associate’s assignments and performance expectations. A copy of
the completed renewal agreement must be submitted to the National Telework
coordinator or to the designated Regional Coordinator. In addition, to assist the

                                         7
National Telework Coordinator in monitoring the number of associates who
participate in the Telework Program, the GSA Time and Leave Administration
Handbook states that the Regional Coordinators should submit on a semi-annual
basis a listing of all program participants.

We found that the telework data used to compile the GSA submissions for OPM’s
2003 and 2004 telework surveys was unreliable. OPM requires agencies to
report eligibility data for core and situational teleworkers, as well as the number
of actual participants in the program. In order to determine this information, the
National Coordinator went through a series of steps beginning with requesting
and obtaining eligibility and participation data from Regional Coordinators. This
information was compiled through various means of communication (i.e., phone
conversations, emails, and fax) and consisted largely of anecdotal information
and estimates. Next, the National Coordinator took the total number of GSA
associates based upon a “Selected Workforce Statistics” report derived from
CHRIS for the given year and subtracted out all Wage Grade associates to
determine the total number of GSA associates who were eligible for the Telework
Program. The National Coordinator then applied percentages to stratify this total
by those eligible for core or situational telework due to unclear definitions in
distinguishing between associates who are eligible for core/situational telework
and those who are ineligible. In our attempts to recalculate the information
reported to OPM, we were unable to verify the accuracy of the data.

In addition, we found a lack of sufficient monitoring controls in two of the three
regions selected for testing. This lack of monitoring controls became apparent
when we issued questionnaires to associates reported as teleworkers by the
Regional Coordinators in the Southeast Sunbelt and National Capital Regions.
We received responses from a number of associates stating that they were not
participating in the Telework Program. Through our discussions with Regional
Coordinators in the Southeast Sunbelt and National Capital Regions, we learned
that while they are attempting to obtain a copy of all agreements to ensure that
they are renewed annually, they did not maintain copies of the telework
agreements as required by the GSA Time and Leave Administration Handbook.
Without a centralized means of identifying all associates participating in the
Telework Program, the CHCO is unable to accurately determine and report the
number of teleworkers.

In contrast to the Southeast Sunbelt and National Capital Regions, the Telework
Committee in the New England Region utilizes a database to track the number of
associates participating in the program. During our site visit to the New England
Region, we were given a demonstration of this database, which contains a listing
of all teleworkers participating in the New England Region’s Telework Program,
the telework contract each program participant is required to complete, as well as
all other requisite telework forms. Additionally, to ensure contracts are renewed
annually, the database generates an email notifying committee members when
an associate’s telework contract has expired. In our opinion, the database serves
as a sufficient monitoring control to enable the New England Region to
                                        8
accurately determine the number of teleworkers in their region and to report the
number of participants to the National Coordinator. GSA may consider utilizing a
similar database to improve the monitoring controls over the agency-wide
Telework Program.

GSA’s Telework Guidance is Inconsistent with the OPM Guidelines
GSA’s telework guidance has not been updated in 10 years and its’ guidance on
determining an employee’s official duty station are inconsistent with guidelines
published in the Federal Register. Additionally, this lack of consistency may
result in associates being assigned the wrong duty station and being paid at an
incorrect rate.

The GSA Time and Leave Administration Handbook, issued September 26, 1996,
contains the guidelines under which GSA’s Telework Program is currently run.
The guidance states, “Regardless of where the employee spends the majority of
work hours, the conventional Federal office, for purposes of flexible workplace
arrangements, remains the official duty station.” This policy is inconsistent with
recent guidelines published in the May 31, 2005, Federal Register Vol. 70 No.
103, Rules and Regulations, § 531.605 (d) (1) which states "For an employee
covered by a telework agreement who is scheduled (while in duty status) to
report at least once a week on a regular and recurring basis to the regular
worksite for the employee's position of record, the regular worksite is the official
worksite. However, for an employee whose work varies on a daily basis, the
employee need not report at least once a week to the established official worksite
(where the employee's work activities are based) as long as the employee is
performing work within the locality pay area for that worksite at least once a week
on a regular and recurring basis. An agency must determine a telework
employee's official worksite on a case-by-case basis. (2) If an employee covered
by a telework agreement does not meet the requirements of paragraph (d) (1) of
this section, the employee's official worksite is the location of the employee's
telework site.”

To determine whether GSA is meeting the requirements of the Federal Register
guidance, we conducted a duty station analysis based upon a judgmentally
selected sample of associates whose home addresses were 75 miles from their
official duty station. There were 10 associates who met the criteria for testing.
Our analysis found one instance where an associate may have been assigned an
incorrect duty station. GSA’s personnel files cite the associate’s official duty
station as Washington, DC. However, the associate teleworks full-time from
home in Berlin, MD and does not report to the Washington office on a weekly or
recurring basis. Based upon the guidance issued by the Federal Register, this
associate’s pay rate should be based on the Berlin, MD work site, which
according to OPM’s General Schedule and Locality Pay tables, is categorized as
“Rest of U.S.”


                                         9
By utilizing guidance developed at the inception of the Telework Program, GSA
may have designated the associate the wrong duty station, resulting in the
associate receiving an excess amount of locality pay. Our testing uncovered
only one instance where an associate may be assigned an incorrect duty station.
However, it is possible that there are additional cases where this is occurring.

While GSA continues to be a leader in the establishment of telework criteria and
programs in the Federal government, there are areas in which GSA’s Telework
Program could be improved. Our review found problems with nationwide
implementation of telework, controls over the program, and outdated telework
guidance. It is our opinion that these issues prevent GSA from receiving the
maximum benefit of the Telework Program.


                              RECOMMENDATIONS


Based upon our review of GSA’s Telework Program, we recommend that the
Chief Human Capital Officer:

1) Implement an agency-wide training program, outlining telework expectations,
procedures, and policies for Regional Coordinators, Telework Supervisors, and
Teleworkers to create a Telework Program that is administered consistently
throughout the organization.
2) Implement monitoring controls by developing an agency-wide tracking system
or database to identify associates who are participating in the Telework Program.
3) Review the agency’s current telework guidance and update as necessary in
accordance with recent guidance issued by OPM.
4) Review the official duty station of full time teleworkers to ensure the associates
are receiving the correct locality pay.


                          MANAGEMENT COMMENTS

Management’s response dated November 8, 2006 states that they plan to
implement the four recommendations included in the report and have
incorporated tracking, training, and communication issues regarding the
Telework Program in their organizational performance plan for Fiscal Year 2007.
A copy of management’s comments is provided in its entirety in Appendix A.




                                         10
                           INTERNAL CONTROLS


As discussed in the Objective, Scope, and Methodology section of this report, we
wanted to determine if proper management and monitoring was in place to
effectively oversee the GSA’s Telework Program. We found that the CHCO
should strengthen its controls over the monitoring of the Telework Program to
ensure that the program is implemented consistently throughout GSA.




                                      11
                      Review of GSA’s Telework Program
                      Report Number: A050197/O/F/F07005
                              November 14, 2006


Report Distribution                                       Copies


Office of Chief Human Capital Officer (C)                    3

Audit Follow-Up and Evaluation Branch (BECA)                1

Office of the Chief Financial Officer (B)                   2

Audit Planning, Policy, and Operations Staff (JAO)          1

Assistant Inspector General for Auditing (JA)               1




                                            B-1
